APPENDIX
TABLE OF CONTENTS
APPENDIX................................................................. ia
Appendix A: Court of Appeals Opinion and
Judgment, May 31, 2018 ..................................... 1a
Appendix B: Concurring Opinion, May 31, 2018
...................................................................... 40a
Appendix C: Order Denying Motion for Rehearing
by Fourteenth Court of Appeals, Texas, August 30,
2018 .................................................................... 61a
Appendix D: Order Denying Motion for Rehearing
En Banc by Fourteenth Court of Appeals, Texas,
August 30, 2018 ................................................. 65a
Appendix E: Temporary Injunction Order March
10, 2017 .............................................................. 69a
Appendix F: Order Denying Petition for Review by
Supreme Court of Texas, March 1, 2019 .......... 73a
Appendix G: Order Denying Motion for Rehearing
by Supreme Court of Texas, April 26, 2019 ..... 74a

ia

Appendix A: Court of Appeals Opinion and Judgment,
May 31, 2018
Reversed and Rendered in Part, Affirmed in
Part, and Majority and Concurring Opinions
filed May 31, 2018.
[Official Seal of the State of Texas]
In The
Fourteenth Court of Appeals
______________________
NO. 14-17-00220-CV
______________________
JELINIS, LLC, Appellant
V.
S. BRUCE HIRAN AND HUNG N. YI, Appellees

On Appeal from the 151st District Court
Harris County, Texas
Trial Court Cause No. 2017-06257
OPINION

1a

Jelinis, LLC appeals a temporary injunction
order in favor of appellees S. Bruce Hiran and Hung
N. Yi. Jelinis argues that the trial court erred by
enjoining it from (1) evicting Hiran and Yi because
they pleaded no cause of action against Jelinis; and (2)
taking legal action in the justice court to evict Hiran
and Yi because they failed to show that “the justice
court

was

without

jurisdiction

to

determine

possession.” We reverse and render in part and affirm
in part.
BACKGROUND
Hiran signed a Texas Home Equity Note on
June 6, 2006, in the amount of $800,000 payable to
Long Beach Mortgage Company. On the same day,
Hiran and his wife Yi signed a Texas Home Equity
Security Instrument confirming that the loan was
secured by residential real property located at 4132
Lehigh Avenue in Houston, Texas. The note and deed

2a

of trust were later transferred to Deutsche Bank
National Trust Company. Select Portfolio Servicing,
Inc. acted as the loan servicer.
Appellees defaulted on their loan in October
2012.

Select Portfolio sent notices of default in

December 2012 and May 2013. Appellees ignored the
notices Select Portfolio sent them. Deutsche Bank, as
trustee, in trust for registered holders of Long Beach
Mortgage Loan Trust 2006-10, filed an Application for
Home Equity Foreclosure Order pursuant to Texas
Rule of Civil Procedure 736 on January 22, 2014.
Deutsche Bank nonsuited the action and filed suit in
the 270th District Court on September 8, 2014,
seeking a declaratory judgment and an order
authorizing foreclosure.
Deutsche Bank filed a traditional summary
judgment motion, contending that (1) it is entitled to
a declaration of its right to foreclose on appellees’

3a

home and to an order authorizing foreclosure because
its summary judgment evidence established that a
debt exists, the debt is secured by a lien for a home
equity loan, a default under the note and deed of trust
exists, and the requisite notices to cure the default
have been provided to appellees; and (2) appellees
should not be allowed to deny executing the loan
documents because Hiran refused to testify at his
deposition regarding “any issues relating to whether
he signed the applicable loan documents and refused
to provide any handwriting exemplars, based on his
assertion of the Fifth Amendment.”
The 270th District Court granted Deutsche
Bank’s summary judgment motion and signed a Final
Judgment

for

Declaratory

Relief

and

Order

Authorizing Foreclosure on December 3, 2015. This
judgment (1) disposed of all claims; (2) awarded “an in
rem Judgment” against appellees authorizing a non-

4a

judicial foreclosure sale of appellees’ home “pursuant
to the terms and conditions of the subject Texas Home
Equity Security Instrument and TEX. PROP CODE
§51.002;” and (3) ordered that the final judgment
“serves as an Order of Foreclosure of a Home Equity
Lien.”
Deutsche Bank sold the home at a foreclosure
sale to Jelinis on December 6, 2016. Jelinis filed a
forcible detainer suit regarding the home on January
12, 2017.
Appellees filed suit in the 151st District Court
on January 30, 2017, naming as parties Long Beach
Mortgage Company, Deutsche Bank, and Jelinis, and
alleging that the “actions committed by Long Beach
Mortgage Company” constitute statutory fraud and
breach of contract, and that the “actions committed by
Deutsche Bank” constitute common law fraud and
breach of contract. Appellees alleged that, “although

5a

their signatures appear to be valid, certain pages of
the Note and Deed of Trust must have been switched
by

representatives

of

Long

Beach

Mortgage

Company…because [appellees]’ Home Equity Loan
was a fixed rate of 2% interest and, instead, the Note
and Deed of Trust attached as exhibits to the
Foreclosure Lawsuit are purported to be an adjustable
rate note at 7.975% interest.”
Appellees further alleged that “the exhibits
which are the legal basis for Deutsche Bank’s being
awarded a judgment authorizing them [sic] to sell
[appellees]’ Property at a foreclosure sale are
fraudulent;

therefore,

the

foreclosure

sale

of

[appellees]’ Property should be deemed void and
rescinded.

Moreover, [appellees] allege[d] that the

Home Equity Loan itself was fraudulent as a result of
Long Beach Mortgage’s representatives switching the
loan

documents

unbeknownst

6a

to

[appellees];

therefore, [appellees]’ home equity loan should be
deemed void ab initio.”
Appellees requested that the trial court (1)
issue a temporary restraining order and then a
temporary injunction enjoining Jelinis from selling
appellees’ home “as well as from taking any legal
action to evict [appellees];” (2) enter a judgment in
favor of appellees “to rescind the foreclosure sale of”
appellees’ home and “to declare the home equity loan
dated June 06, 2006 between [appellees] as well as
Long Beach Mortgage Company as void ab initio;” and
(3) enter a judgment against Long Beach Mortgage
Company and Deutsche Bank for actual and
exemplary damages and attorney’s fees.
Attached to appellees’ petition was Hiran’s
affidavit in which he stated in pertinent part:
2. The subject matter of this lawsuit is the real
property and the improvements thereon located at

7a

4132 Lehigh Avenue, Houston, TX 77005 (the
“Property”).
3. The Property was owned by my wife Hung
N. Yi and I on June 06, 2006 on which date we entered
into a Home Equity Loan.

During the process of

entering into the Home Equity Loan, we executed a
Texas Home Equity Note (“Note”) in the amount of
$800,000 which was payable to Long Beach Mortgage
Company (“Long Beach”). In addition, we executed a
Texas Home Equity Security Instrument (“Deed of
Trust”).
4.

…the Note and Deed of Trust were

subsequently transferred to Deutsche Bank National
Trust....
5. During the term of the Note, we began to
receive notices that we were past due on the payments
of the Note. We did not understand how that could be
true since we were making our payments on the Note

8a

in full and in a timely manner.

Accordingly, we

expected that the notices must be a clerical error
which will be remedied in due course. As such, we
ignored the delinquency notices which we received
from SPS.
6. Due to the nature and extent of Plaintiffs’
perceived delinquency, Deutsche Bank filed an
Application for Home Equity Foreclosure…[i]n the
270th Judicial District Court of Harris County, Texas
(the “Foreclosure Lawsuit”).
7. The Foreclosure Lawsuit culminated in a
Final Judgment for Declaratory Relief and Order
Authorizing Foreclosure and the Property was sold by
Deutsche Bank to Jelinis, LLC (“Jelinis”) at a
foreclosure sale on December 06, 2016.
8.

During the course of investigating this

lawsuit, I informed my legal counsel that we did not
execute the Note and Deed of Trust which were

9a

attached as exhibits to the Foreclosure Lawsuit.
Instead, I assert that, although our signatures appear
to be valid, certain pages of the Note and Deed of Trust
must have been switched by representatives of Long
Beach Mortgage Company (“Long Beach Mortgage”)
because our Home Equity Loan was a fixed rate of 2%
interest and, instead, the Note and Deed of Trust
attached as exhibits to the Foreclosure Lawsuit are
purported to be an adjustable rate note at 7.975%
interest.
The trial court granted appellees’ request for a
temporary restraining order and set a hearing on
appellees’ temporary injunction request. Appellees
nonsuited their claims against Deutsche Bank
without prejudice on February 22, 2017.
Jelinis filed an Objection to Plaintiff’s Request
for Temporary Injunction on February 23, 2017,
arguing that the trial court should not enjoin the

10a

justice court from exercising its jurisdiction to hear
Jelinis’s forcible detainer suit. Jelinis argued that the
justice court only loses jurisdiction if “the right to
possession is so interrelated with title so as to make a
determination

of

title

necessary

before

a

determination of possession can be made.” According
to Jelinis “there is a way to determine the issue of
possession without reaching the merits of title”
because the “foreclosed deed of trust created a
tenancy-at-sufferance upon foreclosure” and appellees
as tenants at sufferance “may be removed by a writ of
possession.”
The trial court held a hearing on February 24,
2017. Hiran testified that the note and deed of trust
introduced at the hearing and in the 270th District
Court proceeding were not the documents he signed
because the documents reference an adjustable
interest rate of 7.975 percent and his home equity loan

11a

was for a fixed interest rate of 2.25 percent. Hiran,
who is an attorney, testified that it is “typical that a
contract that was entered into as a fraudulent
transaction would be deemed void in [his] legal
opinion.” Hiran also stated that, in his legal opinion,
he believed appellees are in “imminent danger of
irreparable harm as the result of the forceful detainer
lawsuit that’s currently pending in JP court.” But
Hiran acknowledged that the signature on the
documents “appears to be” his signature and that he
did not have a copy of the note and deed of trust he
and his wife signed at closing in 2006.
At the conclusion of the hearing, the trial court
instructed the parties to file briefs addressing the
issue of res judicata “in conjunction with the element
of a temporary injunction that is the likelihood of
success on the merits,” so that the court could “take a
look at what actually happened in the 270th, what the

12a

proceedings were and whether they do have preclusive
effect at all in this lawsuit and, if so, to what extent.”
Jelinis filed a Brief in Opposition to Temporary
Injunction as requested by the trial court. In its brief,
Jelinis argued that appellees’ claims in “this lawsuit
were compulsory counterclaims arising out of the
same subject matter as the lawsuit brought by
Deutsche Bank on September 8, 2014,” and, therefore,
are barred by res judicata.
The trial court signed an order granting a
temporary injunction on March 10, 2017, enjoining
Jelinis from selling appellees’ home and from taking
any legal action to evict appellees, including pursuing
Jelinis’s forcible detainer suit in justice court. The
court also stated in its order that it “finds that the
final relief granted in the lawsuit in the 270th District
Court was only in rem pursuant to TRCP 735 and
therefore likely does not have preclusive effect on

13a

[appellees’] claims in this suit as a matter of law.”
Jelinis filed a timely interlocutory appeal.1
ANALYSIS
Jelinis argues in two issues that the trial court
erred by enjoining it from (1) evicting appellees
because they pleaded no cause of action against
Jelinis; and (2) taking legal action in the justice court
to evict appellees because they failed to show that “the
justice court was without jurisdiction to determine
possession.”
I

Standard of Review
A temporary injunction is an extraordinary

remedy and does not issue as a matter of right.
Butnaru v. Ford Motor Co., 84 S.W.3d 198, 204 (Tex.

Section 51.014(a)(4) of the Civil Practices and Remedies Code
specifically provides for an interlocutory appeal from an order
granting a temporary injunction. Tex. Civ. Prac. & Rem. Code
Ann. § 51.014(a)(4) (Vernon 2017) (“A person may appeal from
an interlocutory order of a district court, county court at law,
statutory probate court, or county court that . . . grants or
refuses a temporary injunction . . . .”).
1

14a

2002) (op. on reh’g). To obtain a temporary injunction,
an applicant must plead and prove three specific
elements: (1) a cause of action against the defendant;
(2) a probable right on final trial to the relief sought;
and (3) a probable, imminent, and irreparable injury
in the interim. Id.
We generally review a district court’s grant of a
temporary injunction for an abuse of discretion.
Pinnacle Premier Props., Inc. v. Breton, 447 S.W.3d
558, 562 (Tex. App.—Houston [14th Dist.] 2014, no
pet.) (op. on reh’g) (citing McGlothlin v. Kliebert, 672
S.W.2d 231, 232 (Tex. 1984)). When consideration of
evidence is required, we view it in the light most
favorable to the trial court’s order, indulging every
reasonable inference in favor of the trial court’s
determination. LasikPlus of Tex., P.C. v. Mattioli, 418
S.W.3d 210, 216 (Tex. App.—Houston [14th Dist.]
2013, no pet.).

15a

“Although an abuse of discretion does not occur
when the trial court heard conflicting evidence and
substantive, probative evidence reasonably supports
the trial court’s decision, we will apply a de novo
standard of review when the issue turns on a pure
question of law.” Pinnacle Premier Props., Inc., 447
S.W.3d at 562. Subject matter jurisdiction is a
question of law. Espinoza v. Lopez, 468 S.W.3d 692,
695 (Tex. App.—Houston [14th Dist.] 2015, no pet);
Maxwell v. U.S. Bank Nat’l Ass’n, No. 14-12-00209CV, 2013 WL 3580621, at *2 (Tex. App.—Houston
[14th Dist.] July 11, 2013, pet. dism’d w.o.j.) (mem.
op.).
II.

Waiver
Before we analyze Jelinis’s challenge of the

trial court’s temporary injunction order, we address
appellees’ request to strike Jelinis’s appellate brief
because the “brief lacks a section pertaining to the

16a

Issue Presented or Presentment of the Issues” as
required in Texas Rule of Appellate Procedure 38.1(f).
Appellees do not cite any case in which a court
has struck an appellate brief because a party failed to
include an “Issues Presented” section in its brief.
Instead, appellees rely on White v. Harvest Credit
Management V, No. 14-04-00349-CV, 2004 WL
2297367 (Tex. App.—Houston [14th Dist.] Oct. 14,
2004, no pet.) (per curiam) (mem. op.), to support their
request to strike. But White is inapplicable.
In White, this court struck appellant’s brief only
after (1) appellant failed to timely file a brief pursuant
to Texas Rule of Appellate Procedure 38.6; (2)
appellant failed to file a motion for extension of time;
(3) this court informed appellant that it would dismiss
his appeal for want of prosecution unless he filed a
brief; (4) appellant filed a letter with this court
explaining that he had filed a brief in the trial court

17a

and also “attached a copy of the document he refer[ed]
to as a brief that he filed” in the trial court; (5) this
court informed appellant that his “letter d[id] not
comply with the requirements for briefs contained in
the Texas Rules of Appellate Procedure” 9.4 and 38.1
and granted appellant an extension of time to file a
brief that conforms to the rules; (6) “appellant
tendered a brief that did not comply with the Texas
Rules of Appellate Procedure;” (7) this court returned
the brief to appellant for correction; (8) “appellant
submitted another nonconforming brief, which was
also returned for correction;” and (9) appellant then
filed a brief that complied with the rules of form but
failed to comply with the briefing requirements set
forth in Rule 38.1, and “[m]ost significantly, appellant
. . . failed to make any legal arguments to support
reversal of the judgment, and the brief contain[ed] no

18a

citations to the record or to legal authorities.” Id. at
*1.
Here, Jelinis’s brief contains every section
listed in Rule 38.1, except for an “Issues Presented”
section. Jelinis presented in the body of its brief “a
clear and concise argument for the contentions made,
with appropriate citations to authorities and to the
record.” See Tex. R. App. P. 38.1(i).
We deny appellees’ request to strike Jelinis’s
appellate brief for failure to include an “Issues
Presented” section in its appellate brief. See Weeks
Marine, Inc. v. Garza, 371 S.W.3d 157, 162 (Tex.
2012); Perry v. Cohen, 272 S.W.3d 585, 587 (Tex. 2008)
(per curiam); Verburgt v. Dorner, 959 S.W.2d 615, 61617 (Tex. 1997).
Having rejected appellees’ request to strike
Jelinis’s brief, we now turn to Jelinis’s arguments
challenging the trial court’s order enjoining Jelinis

19a

from taking legal action in the justice court via a
forcible detainer suit to evict appellees.
III.

Justice Court Jurisdiction
We begin by addressing Jelinis’s contention in

its second issue that the “trial court erred in enjoining
[Jelinis] when there was no showing that the justice
court

was

without

jurisdiction

to

determine

possession.”
Jelinis contends that the justice court has
jurisdiction over its forcible detainer case and a
district court may not enjoin a justice court from
hearing a forcible detainer case if the justice court
does not have to make a determination regarding title.
According to Jelinis, the justice court can determine
possession without determining title because the
foreclosed deed of trust created a tenancy-atsufferance upon foreclosure.

20a

Jurisdiction to hear a forcible detainer action is
expressly given to the justice court of the precinct
where the property is located. Pinnacle Premier
Props., Inc., 447 S.W.3d at 562; see Tex. Prop. Code
Ann. § 24.004 (Vernon 2000). A justice court has
exclusive jurisdiction to decide the issue of immediate
possession, which may not be infringed upon as long
as the justice court determines only possession.
Pinnacle Premier Props., Inc., 447 S.W.3d at 562; Rice
v. Pinney, 51 S.W.3d 705, 713 (Tex. App.—Dallas
2001, no pet.). Although a justice court has exclusive
jurisdiction to hear a forcible detainer action, a
district court may enjoin the exercise of the justice
court’s jurisdiction in a forcible detainer action when
there is a showing that the justice court is without
jurisdiction to proceed in the cause or the defendant
has no adequate remedy at law. McGlothlin, 672

21a

S.W.2d at 232; Pinnacle Premier Props., Inc., 447
S.W.3d at 562.
The only issue to be resolved in a forcible
detainer action is the right to immediate possession of
property; the merits of title are not adjudicated.
Espinoza, 468 S.W.3d at 695; Yarbrough v. Household
Fin. Corp. III, 455 S.W.3d 277, 280 (Tex. App.—
Houston [14th Dist.] 2015, no pet.). Justice courts lack
jurisdiction to adjudicate title disputes or determine
who has title to land. Espinoza, 468 S.W.3d at 695;
Yarbrough, 455 S.W.3d at 280.
When there are issues concerning both title and
possession, the issues may be litigated in separate
proceedings in different courts with appropriate
jurisdiction. Espinoza, 468 S.W.3d at 695; Yarbrough,
455 S.W.3d at 280. But when a forcible detainer action
presents a genuine issue of title so intertwined with
the issue of possession that a trial court would be

22a

required

to

determine

title

before

awarding

possession, then a justice court lacks jurisdiction to
resolve the matter. Yarbrough, 455 S.W.3d at 280; see
Pinnacle Premier Props., Inc., 447 S.W.3d at 563.
Thus, a justice court is not deprived of jurisdiction
merely by the existence of a title dispute; it is deprived
of jurisdiction only if resolution of a title dispute is a
prerequisite

to

determination

of

the

right

to

immediate possession. Espinoza, 468 S.W.3d at 69596; Yarbrough, 455 S.W.3d at 280.
A forcible detainer action requires proof of a
landlord-tenant relationship. Yarbrough, 455 S.W.3d
at 280. Although such a relationship is not a
prerequisite to jurisdiction, the lack of such a
relationship indicates that the case may present a
title issue. Id.; Pinnacle Premier Props., Inc., 447
S.W.3d at 564 n.9.

23a

The deed of trust in this case contained the
following

tenancy-at-sufferance

clause:

“If

the

Property is sold pursuant to [a foreclosure sale],
Borrower or any person holding possession of the
Property

through

Borrower

shall

immediately

surrender possession of the Property to the purchaser
at that sale. If possession is not surrendered,
Borrower or such person shall be a tenant at
sufferance and may be removed by writ of possession.”
“Tenant-at-sufferance clauses separate the
issue of possession from the issue of title.” Pinnacle
Premier Props., Inc., 447 S.W.3d at 564. “Under these
provisions, a foreclosure sale transforms the borrower
into a tenant at sufferance who must immediately
relinquish

possession

to

the

foreclosure-sale

purchaser.” Id. In essence, a tenancy-at-sufferance
clause creates a landlord-tenant relationship when

24a

the property is foreclosed. See Yarbrough, 455 S.W.3d
at 280.
Appellees contend that “the issue of title is so
intertwined with the issue of possession as to preclude
jurisdiction in the justice court.” Appellees state that
they “do not dispute” the deed of trust contains a
tenancy-at-sufferance clause. Instead, they contend
that

the

“fraudulent

practice

by

Long

Beach

Mortgage” of secretly switching certain pages in the
loan documents made the home equity loan, the
related deed of trust, the foreclosure sale, and
substitute trustee’s deed void. Therefore, according to
appellees,

“there

can

be

no

landlord-tenant

relationship between the parties” based on the
tenancy-at-sufferance clause when the clause is part
of the void deed of trust.

25a

Appellees rely on Yarbrough v. Household
Finance Corporation III to support their contentions.
This reliance is misplaced.
In Yarbrough, Household Finance filed a
forcible detainer suit in justice court to evict the
Yarbroughs from their home. Id. at 278. The justice
court record contained a deed of trust allegedly signed
by the Yarbroughs, as borrowers, as security for a loan
from Ameriquest Mortgage Company. Id. The deed of
trust allowed the trustee to foreclose on the property
in the event of a default, and if that occurred, the
Yarbroughs were required to surrender possession
under a tenancy-at-sufferance clause. Id. at 278, 280.
When Household Finance purchased the property at a
foreclosure sale and acquired a substitute trustee’s
deed conveying the property, it initiated a forcible
detainer action to gain possession of the property from
the Yarbroughs. Id. at 278. The justice court signed a

26a

judgment in favor of Household Finance, which the
Yarbroughs appealed to the county court at law. Id. at
278-79.
The Yarbroughs filed a plea to the jurisdiction
and an amended plea alleging that the foreclosure sale
was void because the deed of trust was forged and
void. Id. at 279. The Yarbroughs filed an affidavit, in
which Ruby Yarbrough stated, “The deed of trust on
which the purported foreclosure sale was based and
that led to the eviction lawsuit was not signed by my
husband or me, and was a forgery. . . . I understand
that the people associated with Ameriquest Mortgage
forged signatures on many loans, and the Deed of
Trust on which the foreclosure sale was based leading
to this eviction would be one of them.” Id. The county
court at law denied the pleas and the Yarbroughs’
affirmative defense of forgery, entering a final

27a

summary judgment awarding Household Finance
possession of the property. Id.
On

appeal,

we

noted

that,

“[l]ike

the

Ameriquest deed of trust here, a deed of trust may
include a tenancy-at-sufferance clause that creates a
landlord-tenant relationship when the property is
foreclosed.” Id. at 280. We also noted that the
Yarbroughs

did

not

challenge

defects

in

the

foreclosure process, which generally do not require a
justice court to resolve a title dispute before
determining

the

right

to

possession,

but

the

Yarbroughs challenged the validity of the original
deed

establishing

the

tenancy-at-sufferance

relationship. Id. at 281. We stated that, because the
Yarbroughs argued that Household Finance’s claim of
a tenancy relationship cannot be sustained on a forged
deed of trust they never signed because such a deed is
void ab initio and passes no title, this case is “more

28a

akin to those in which the parties disputed the
existence of a landlord-tenant relationship.” Id. at
282. We concluded that, “[b]ecause the Yarbroughs
contend the deed of trust and resulting substitute
trustee’s deed are void due to forgery, they have raised
a genuine issue of title so intertwined with the issue
of possession as to preclude jurisdiction in the justice
court. A prerequisite to determining the immediate
right to possession will be resolution of the
Yarbroughs’ title dispute concerning forgery of the
deed of trust.”
Here, appellees allege that the home equity
loan and deed of trust are void because Long Beach
Mortgage switched certain pages in the loan
documents without appellees’ knowledge to reflect an
adjustable interest rate of 7.975 percent instead of a 2
percent fixed interest rate. This is a different
allegation than the one at issue in Yarbrough because

29a

the homeowners in Yarbrough did not claim that some
information or terms of their loan or the deed of trust
were forged; they offered evidence that they never
signed the deed of trust on which the foreclosure sale
was based and that their signatures were forged, so
that a tenancy relationship could not be sustained
based on a forged deed of trust because the deed was
void. See id. at 279, 282.
Here, appellees do not deny that they signed
loan documents including the note containing the
adjustable interest rate, the deed of trust containing
the tenancy-at-sufferance clause, and the adjustable
rate rider. This rider contains provisions allowing for
changes in the interest rate and monthly payments
and states that it is “deemed to amend and
supplement the [d]eed of [t]rust.” Appellees also do not
deny that the deed of trust contained a checked box
for “Texas Home Equity Adjustable Rate Rider” on the

30a

same page on which appellees signed the deed of trust.
This rider contained a “Limits on Interest Rate
Changes” clause that provided: “The interest rate I am
required to pay at the first Change Date will not be
greater than 9.975% or less than 7.975%.”
Appellees have not claimed that the pages of
the deed of trust and adjustable rate rider containing
their signatures have been switched or somehow
falsified; these pages contain language indicating an
adjustable interest rate. Appellees also have not
denied that they entered into an agreement with Long
Beach Mortgage to borrow $800,000 and that they
used their home to secure the loan from Long Beach
Mortgage. Appellees did not dispute that they agreed
to the tenancy-at-sufferance clause contained in the
deed of trust they signed. Nor have appellees alleged
that their signatures acknowledging the terms and
conditions within the loan documents were forged.

31a

Unlike the forgery allegations made in Yarbrough,
appellees’ claim that the mortgage company allegedly
switched certain pages in the loan documents to
change the interest rate terms did not raise “a genuine
issue of title so intertwined with the issue of
possession as to preclude jurisdiction in the justice
court.”
The circumstances in this case are more akin to
those in Wade v. Household Finance Corporation III,
No. 06-15-00074-CV, 2016 WL 741872 (Tex. App.—
Texarkana Feb. 25, 2016, no pet.) (mem. op.).
In Wade, Don Wade and his wife borrowed
$57,999.72 from Household Finance to buy two mobile
homes that were located on their real property. Id. at
*1. To secure the loan, the Wades executed a first lien
and deed of trust giving the real property to
Household Finance as security for the loan. Id. The
deed of trust contained a tenancy-at-sufferance

32a

clause. Id. When the Wades defaulted on the loan,
Household Finance accelerated the loan and later
bought the real property at a foreclosure sale. Id.
Household Finance sent Wade a notice to vacate the
real property and filed a forcible detainer suit in
justice court when Wade failed to do so. Id. at *2.
Wade responded by filing a plea to the jurisdiction,
arguing, among other things, that he pledged only a
little over three acres of collateral at the time of the
loan and that the justice court lacked subject matter
jurisdiction. Id. The justice court awarded possession
of the real property to Household Finance. Id. On
appeal to the county court at law, the court denied
Wade’s plea to the jurisdiction and ordered “Wade to
be removed from the property.” Id.
Wade claimed on appeal that the description of
the real property pledged as security for repayment of
the loan attached to the deed of trust wrongly

33a

reflected 90 acres of land, and his affidavit showed
that he only owned 34.69 acres, after selling parcels
out of his original 90-acre property. Wade claimed he
agreed with Household Finance “to allow a lien of 10%
of the remaining acreage, 3.4 acres, together with a
lien” on the two mobile homes to be financed. Id. at *3,
5. Wade argued the justice court lacked jurisdiction to
decide the issue of possession to 90 acres because
Household Finance “fraudulently falsified the amount
of acreage described within the deed of trust, thereby
making it void, and that the resolution of title was a
necessary prerequisite to determining the identity of
which party had the immediate right of possession.”
Id. at *5-6.
The court of appeals rejected Wade’s argument.
Id. at *7. It analyzed Wade’s contentions and held that
the Yarbrough case was inapplicable. Id. at *6-7. The
court noted that Wade did not deny entering into an

34a

agreement with Household Finance to borrow the
amount stated in the loan documents; Wade did not
challenge the validity of the tenancy-at-sufferance
clause in the deed of trust; and “whether Wade had
title to ninety acres or 34.69 acres . . . , Wade has never
claimed that his signature verifying the information
contained within any of the documents was a forgery.”
Id. at *7. The court held that Wade’s alleged title
dispute was not so intertwined with the right to
possession that it divested the justice court of
jurisdiction to determine who had superior right of
possession to the property. Id.
Having

considered

the

evidence

and

arguments, we conclude that the present case is
distinguishable from Yarbrough and similar to Wade.
We hold that appellees are subject to the tenancy-atsufferance clause contained in the deed of trust; the
questions of possession and title are not intertwined;

35a

and the justice court had jurisdiction over the issue of
possession.
IV.

Adequate Remedy at Law
Appellees

argue

that

they

will

suffer

irreparable harm and do not have an adequate remedy
at law because real estate is unique. But the cases
appellees cite to support their argument all involved
injunctions to stop foreclosures. Here, the foreclosure
already has occurred. Appellees’ available remedies
are money damages or rescission of the foreclosure
sale. See Pinnacle Premier Props., Inc., 447 S.W.3d at
565. Therefore, under the facts of this case, appellees
have an adequate remedy at law through rescission of
the sale if the claims they brought in district court are
meritorious. See id.
CONCLUSION
The trial court erred in enjoining Jelinis from
pursuing its forcible detainer suit in justice court to

36a

evict appellees. The justice court had jurisdiction in
this case over the question of possession because the
issues of title and possession were not so intertwined
that a trial court would be required to determine title
before awarding possession, and appellees have an
adequate remedy at law if their claims in district court
are meritorious. We sustain Jelinis’s second issue.
And, in light of our disposition of Jelinis’s second
issue, we need not reach its first issue.
Accordingly, we reverse the trial court’s
temporary injunction insofar as it enjoins Jelinis from
pursuing its forcible detainer suit in justice court to
evict appellees and we render judgment denying
appellees’ request for a temporary injunction. Because
Jelinis does not challenge the trial court’s temporary
injunction order in any other respects, we affirm the
remainder of the order.
/s/

37a

William J. Boyce

Justice
Panel consists of Chief Justice Frost and Justices
Boyce and Jewell (Frost, C.J., concurring).
May 31, 2018
[Official Seal of the State of Texas]
JUDGMENT
The Fourteenth Court of Appeals
JELINIS, LLC, Appellant
NO. 14-17-00220-CV

V.

S. BRUCE HIRAN AND HUNG N. YI, Appellees
______________________________________
This cause, an appeal from the temporary
injunction order in favor of appellees S. Bruce Hiran
and Hung N. Yi, signed March 10, 2017, was heard on
the transcript of the record. We have inspected the
record and find the trial court erred. We REVERSE
the trial court’s temporary injunction order insofar as
it enjoins appellant Jelinis, LLC from pursuing its

38a

forcible detainer suit in justice court to evict appellees
S. Bruce Hiran and Hung N. Yi. We RENDER
judgment denying appellees’ request for a temporary
injunction.
We find no error in the remainder of the
temporary injunction order and order it AFFIRMED.
We order that all costs incurred by reason of
this appeal be paid by appellees S. Bruce Hiran and
Hung N. Yi.
We further order this decision certified below
for observance.

39a

Appendix B: Concurring Opinion, May 31, 2018
Reversed and Rendered in Part, Affirmed in
Part, and Majority and Concurring Opinions
filed May 31, 2018.
[Official Seal of the State of Texas]
In The
Fourteenth Court of Appeals
______________________
NO. 14-17-00220-CV
______________________
JELINIS, LLC, Appellant
V.
S. BRUCE HIRAN AND HUNG N. YI, Appellees

On Appeal from the 151st District Court
Harris County, Texas
Trial Court Cause No. 2017-06257
CONCURRING OPINION
The trial court enjoined the purchaser of real
property at a foreclosure sale from taking action in the
justice court to evict the former owners and current
40a

occupants of the premises,

who

claimed that

fraudulent alterations of the promissory note they
signed to purchase the property rendered the loan
documents void and unenforceable. The occupants
relied on our recent precedent in Yarbrough, v.
Household Fin. Corp. III,1 to argue that the
intertwining of issues of title and possession deprived
the justice court of jurisdiction to conduct eviction
proceedings.
In concluding that the trial court abused its
discretion in issuing the temporary injunction, the
majority declines to find intertwining issues and
declines to apply the Yarbrough precedent. Unlike the
Yarbrough court, the majority does not analyze the
effect of the fraud allegations. Nor does the majority
consider

the

legal

consequences

of

fraudulent

455 S.W.3d 277, 283 (Tex. App.—Houston [14th Dist.] 2015,
no pet.).
1

41a

alterations on the validity and enforceability of the
instruments. Instead, the majority reasons that the
occupants do not deny signing an instrument
containing a tenancy-at-sufferance clause. But, if the
occupants are correct that the note and deed of trust
are void and unenforceable, and the note and the deed
of trust create the tenancy-at-sufferance relationship,
then the issues of title and possession still would be
intertwined. The occupants challenge the entirety of
the loan documents, yet the majority concludes that
the occupants have failed to challenge the tenancy-atsufferance clause. The majority then reasons that the
occupants’ failure to challenge the tenancy-atsufferance clause means the issues of title and
possession are not intertwined. Both the reasoning
and approach are out of step with Yarbrough.
The better course would be to conclude that the
occupants’ allegations do not show intertwining of

42a

title and possession issues because the occupants have
not alleged or proved that the purchaser at the
foreclosure sale would be unable to enforce the terms
of the original note and deed of trust, including the
tenancy-at-sufferance clause.
Factual and procedural background
Appellee Bruce Hiran signed a Texas Home
Equity Note payable to Long Beach Mortgage
Company. Hiran and his wife Hung N. Yi secured the
debt by giving Long Beach Mortgage Company a deedof-trust lien on their property at 4132 Lehigh. Long
Beach Mortgage Company later transferred the note
and deed of trust to Deutsche National Bank, as
trustee, in trust for registered holders of Long Beach
Mortgage Loan Trust 2006-10. When Hiran defaulted
on the note, Deutsche National Bank foreclosed on the
deed-of-trust lien and sold the property to appellant
Jelinis, LLC at a foreclosure sale. Hiran and Yi, who

43a

occupied the property, filed an action in the trial court
seeking various forms of relief, including a temporary
injunction enjoining Jelinis from obtaining relief in
the justice court to evict them from the property. On
appeal, Hiran and Yi assert that they were entitled to
a temporary injunction because the justice court
lacked jurisdiction over the forcible detainer action
due to intertwining issues of title and possession.
Though the note and deed of trust would create
a tenancy-at-sufferance relationship between Hiran
and Yi and the purchaser of the property at a
foreclosure sale, Hiran and Yi assert that fraudulent
alterations of the note and deed of trust render the
instruments void. Thus, according to Hiran and Yi,
the justice court lacks jurisdiction because whether
the note and deed of trust are void relates to both title
and possession. The trial court granted Hiran and Yi’s

44a

request for a temporary injunction. Jelinis now
challenges that ruling on appeal.
Standards governing relief
To get a temporary injunction, Hiran and Yi
had to prove (1) a claim against Jelinis, (2) a probable
right on final trial to the relief sought, and (3) a
probable, imminent, and irreparable injury in the
interim.2 In granting the temporary injunction, the
trial court determined that Hiran and Yi have a
probable right to the relief they seek—dismissal of the
forcible detainer case from the justice court for lack of
jurisdiction.
Analysis
Though justice courts have jurisdiction over
forcible-detainer actions, they lack subject-matter

See Butnaru v. Ford Motor Co., 84 S.W.3d 198, 204 (Tex.
2002) (op. on reh’g).
2

45a

jurisdiction to resolve title disputes.3 The only issue
in a forcible-detainer action is who has the right to
immediate possession of the premises.4 The justice
court lacks jurisdiction over a forcible-detainer action
if the question of title is so intertwined with the issue
of possession that possession cannot be adjudicated
without first determining title.5 When there is a basis
for determining immediate possession independent
from title, the justice court has jurisdiction to hear the
forcible-detainer action.6
To establish a forcible detainer, a plaintiff must
prove that a person who refuses to surrender
possession of the real property on demand is a tenant

Laguan v. U.S. Bank Trust, No. 14-14-00577-CV, 2016 WL
750172, at *3 (Tex. App.—Houston [14th Dist.] Feb. 25, 2016,
no pet.) (mem. op.).
4 See Shields Limited P’ship v. Bradberry, 526 S.W.3d 471, 478
(Tex. 2017).
5 See Reynoso v. Dibs, US, Inc., 541 S.W.3d 331, 337 (Tex.
App.—Houston [14th Dist.] 2017, no pet.).
6 See id.
3

46a

or subtenant who falls within one of three statutory
categories.7 If a trustee’s deed purports to convey real
property to a person who was the highest bidder at the
foreclosure sale on a deed-of-trust lien and if the
person pursues a forcible-detainer action against the
former owners of

the property, a tenancy-at-

sufferance clause8 in the deed of trust allows the
person to prove the tenancy status of the former
owners and to prove superior right to possession
without proving the validity of the person’s title to the
real property.9

See Tex. Prop. Code Ann. § 24.002 (West, Westlaw through 2017
1st C.S.) (stating that a person who refuses to surrender
possession of real property on demand commits a forcible
detainer if the person: (1) is a tenant or a subtenant wilfully and
without force holding over after the termination of the tenant's
right of possession; (2) is a tenant at will or by sufferance,
including an occupant at the time of foreclosure of a lien superior
to the tenant’s lease; or (3) is a tenant of a person who acquired
possession by forcible entry).
8 A tenancy-at-sufferance clause provides that in the event of a
foreclosure sale, the grantor in the deed of trust will become a
tenant at sufferance. See Reynoso, 541 S.W.3d at 337.
9 See id.
7

47a

Hiran and Yi do not allege that their signatures
were forged. Hiran does not deny that the signature
page of the note bears his signature. Hiran and Yi do
not deny that the signature page of the deed of trust
contains each of their signatures. However, Hiran and
Yi assert that Long Beach Mortgage fraudulently
switched pages in the note and deed of trust after their
execution of the instruments. They allege that Hiran
signed a note with a fixed 2% interest rate and to
secure the note, Hiran and Yi signed a deed of trust.
According to Hiran and Yi, Long Beach Mortgage
must have changed the pages so that the fraudulent
versions of the note and deed of trust showed a 7.975%
adjustable-interest rate. Hiran and Yi assert that this
action made the note and deed of trust void.
If the note and deed of trust are void, as Hiran
and Yi allege, then Deutsche National Bank would
have lacked title to the property and so could not have

48a

transferred the title to Jelinis at the foreclosure sale.
In addition, if the note and deed of trust are void, then
Jelinis cannot rely on the tenancy-at-sufferance
clause in the deed of trust to establish a forcible
detainer.10 Thus, if Long Beach Mortgage’s alleged
fraud in switching out some of the pages in the note
and deed of trust would make these instruments void,
then that allegation would bear upon Jelinis’s ability
to prove a superior right to possession as well as
Jelinis’s title to the premises.11
Embracing the Sixth Court of Appeals’ opinion
in Wade v. Household Finance Corp. III,12 the
majority concludes that Hiran and Yi have not shown
the issues of possession and title are intertwined

See Tex. Prop. Code Ann. § 24.002; Reynoso, 541 S.W.3d at
337.
11 See Tex. Prop. Code Ann. § 24.002; Reynoso, 541 S.W.3d at
337.
12 No. 06-15-00074-CV, 2016 WL 741872 (Tex. App.—Texarkana
Feb. 25, 2016, no pet.) (mem. op.)
10

49a

because they neither dispute signing a deed of trust
nor dispute that the deed of trust they signed
contained

a

tenancy-at-sufferance

clause.13

In

adopting the Wade rationale, the majority effectively
enforces a

portion

of an allegedly fraudulent

document, reasoning that Hiran and Yi admit to
having signed a similar document.14
In Wade, the maker of the note/occupant of the
premises claimed the note holder falsified parts of the
deed of trust, making the deed of trust void.15 The
maker/occupant in Wade asserted that if the deed of
trust were void, then the note holder would not have
proper title to the property or a superior right to
possession, and the intertwined issue of title would
deprive the justice court of jurisdiction. 16 The Wade

See ante at 15–16.
See id.
15 Wade, 2016 WL 741872, at *5.
16 See id.
13
14

50a

court concluded that when the parties do not dispute
that they signed a document creating a landlordtenant relationship, then the justice court has
jurisdiction over the forcible-detainer action.17 In
Yarbrough, this court took a different approach.
The Yarbrough court held that when a party
asserts facts that, if true, would make void the deed of
trust containing the tenancy-at-sufferance clause, the
issue of title is intertwined with the issue of
possession.18 In Yarbrough, the occupants asserted
that the deed of trust was forged, which, if true, would
have made the deed of trust and its tenancy-atsufferance clause void ab initio.19 The Wade court and
the majority seize on language in Yarbrough stating
that, “when there is no dispute that the parties agreed

See id. at *7.
See Yarbrough, v. Household Fin. Corp. III, 455 S.W.3d 277,
283 (Tex. App.—Houston [14th Dist.] 2015, no pet.).
19 Id. at 281–82.
17
18

51a

to a tenancy relationship in the event of foreclosure,
the tenancy relationship provides an independent
basis for resolving the issue of possession.”20 But, in
Wade and in today’s case, even though the occupants
do not deny signing a deed of trust that contained a
tenancy-at-sufferance clause, they challenge the
existence of the landlord-tenant relationship by
alleging that the contract creating the relationship is
void and unenforceable due to fraud.
The majority asserts that neither the occupant
in Wade nor Hiran and Yi challenged the validity of
the tenancy-at-sufferance clause.21 But, if the note
and deed of trust are void, as Hiran and Yi allege, then
the tenancy-at-sufferance clause is also void and there
is no basis for Jelinis to establish a forcible detainer.22

Id. at 282. See ante at 15–16.
See ante at 15–16.
22 See Reynoso, 541 S.W.3d at 337; Yarbrough, 455 S.W.3d at
282.
20
21

52a

The allegation that the note and deed and trust are
void due to the allegedly fraudulent acts of Long
Beach Mortgage Company is a challenge to the
existence

of

the

tenancy-at-sufferance

clause

contained in the deed of trust. The majority does not
explain how the issues of possession and title can be
separate if both possession and title turn on the
validity of the allegedly void instruments.23
Material

alterations

under

section

Uniform

Commercial Code section 3.407
Texas’s version of the Uniform Commercial
Code, embodied in Texas Business and Commerce
Code, speaks to the effect of alterations on negotiable
instruments after execution.24 Section 3.407, entitled
“Alteration,” provides:

See ante at 11–16.
See Tex. Bus. & Comm. Code Ann. § 3.407 (West, Westlaw
through 2017 1st C.S.).
23
24

53a

(a)

“Alteration” means:

(1) an unauthorized change in an instrument that
purports to modify in any respect the obligation of
a party; or
(2) an unauthorized addition of words or numbers
or other change to an incomplete instrument
relating to the obligation of a party.
(b) Except as provided in Subsection (c), an
alteration fraudulently made discharges a party
whose obligation is affected by the alteration
unless that party assents or is precluded from
asserting the alteration. No other alteration
discharges a party, and the instrument may be
enforced according to its original terms.
(c) A payor bank or drawee paying a fraudulently
altered instrument or a person taking it for value,
in good faith and without notice of the alteration,
may enforce rights with respect to the instrument:

54a

(1)

according to its original terms; or

(2) in the case of an incomplete instrument altered
by unauthorized completion, according to its terms
as completed.25
Under section 3.407, a fraudulent alteration of an
instrument does not discharge the obligation of a
party whose obligation is affected by the alteration
vis-à-vis

a

payor

bank

or

drawee

paying

a

fraudulently altered instrument or a person taking it
for value, in good faith and without notice of the
alteration.26
Hiran and Yi allege that Long Beach Mortgage
Company altered the note and deed of trust after they
signed these loan documents. Under the principles set
forth in section 3.407, if the allegations are true, Long
Beach Mortgage Company’s alteration of the note and

25
26

Tex. Bus. & Comm. Code Ann. § 3.407.
See id.

55a

deed of trust would discharge Hiran’s and Yi’s
obligations under the note and deed of trust unless
Hiran and Yi are precluded from asserting the
alteration or the party seeking to enforce its rights
with respect to the note and deed of trust is a payor
bank or drawee paying a fraudulently altered
instrument or a person taking it for value, in good
faith, and without notice of the alteration.27 Under
section 3.407(c), one taking the altered instrument for
value, in good faith, and without notice of the
alteration may enforce rights with respect to the
instrument according to its original terms.28 So, if
Deutsche National Bank took the allegedly altered
instruments for value, in good faith, and without
notice of the alleged alterations, then Deutsche
National Bank would be entitled to enforce the

27
28

See id.
See Bus. & Comm. Code Ann. § 3.407(c).

56a

instruments according to their original terms.29 Both
sides agree that the original terms included a tenancyat-sufferance clause.
To allege a title issue based on the alterations
of the instruments, Hiran and Yi needed to raise
allegations that would show the law barred Deutsche
National Bank from foreclosing on the deed-of-trust
lien because of the alleged alterations of the
instruments. But, Hiran and Yi made no such
allegations. They did not allege that Deutsche
National Bank did not take the note for value, in good
faith, and without notice of the alleged alterations, nor
did they put on any proof that Deutsche National
Bank did not take the note for value, in good faith, and
without notice of the alleged alterations. Absent such
proof, Deutsche National Bank would be entitled to

29

See id.

57a

enforce the note and deed of trust according to the
instruments’ original terms.30 Because Hiran and Yi
agreed the original terms of the instruments included
a tenancy-at-sufferance clause, to deprive the justice
court of jurisdiction, they needed to have alleged that
the alterations prevented Deutsche National Bank
from enforcing the tenancy-at-sufferance clause.
The

Yarborough

court

intertwining-of-title-and-possession

analyzed
issue

the
by

evaluating the legal consequences of the alleged act
that rendered the loan documents void (in that case,
forgery). The Yarborough court reasoned that the
forgery allegation, if true, would render the deed of
trust, including the tenancy-at sufferance clause void,
so the court found the requisite entanglement of the
title and possession issues.31 In analyzing today’s

30
31

See id.
See Yarbrough, 455 S.W.3d at 283.

58a

case, the majority abandons Yarborough’s analytical
framework. The majority does not address whether
the legal remedy for one harmed by the fraudulent
switching of pages in the note and deed of trust would
be to declare the instruments void.32 Neither the
majority nor the occupants cite to any case so holding.
If the law would enforce the parties’ true agreement
rather than declare the instruments void, then despite
the switching-pages allegations, the issues of title and
possession would not be intertwined.
The court should follow Yarbrough’s approach
rather than looking to Wade. Though I concur in the
court’s judgment, I respectfully decline to join in the
majority’s reasoning.

/s/ Kem Thompson Frost
Chief Justice

32

See ante at 11–16.

59a

Panel consists of Chief Justice Frost and Justices
Boyce and Jewell. (Boyce, J., majority).

60a

Appendix C: Order Denying Motion for Rehearing by
Fourteenth Court of Appeals, Texas, August 30, 2018

FILE COPY
Justices
WILLIAM J. BOYCE
TRACY CHRISTOPHER
MARTHA HILL JAMISON
J. BRETT BUSBY
JOHN DONOVAN
MARC W. BROWN
KEN WISE
KEVIN JEWELL
[Official Seal of the State of Texas]
Chief Justice
KEM THOMPSON FROST
Clerk
CHRISTOPHER A. PRINE

61a

PHONE 713-274-2800
Fourteenth Court of Appeals
301 Fannin, Suite 245
Houston, Texas 77002
Thursday, August 30, 2018
Robert C. Vilt
Vilt and Associates, P.C.
5177 Richmond Avenue, Ste 1142
Houston, TX 77056
* DELIVERED VIA E-MAIL *
Keith Allen Wolfshohl
Barry & Sewart, PLLC
4151 Southwest Freeway, Suite 680
Houston, TX 77027
* DELIVERED VIA E-MAIL *
Anna Clement Sewart
Barry & Sewart, PLLC
4151 Southwest Fwy Ste 680

62a

Houston, TX 77027-7405
* DELIVERED VIA E-MAIL *
Austin R. DuBois
Barry & Sewart, PLLC
4151 Southwest Freeway, Suite 680
Houston, TX 77027
* DELIVERED VIA E-MAIL *
RE: Court of Appeals Number: 14-17-00220-CV
Trial Court Case Number: 2017-06257
Style: Jelinis, LLC
V.
S. Bruce Hiran and Hung N. Yi
Please be advised that on this date the Court
DENIED APPELLEE’S motion for rehearing in the
above cause. Chief Justice Frost would grant
rehearing at the panel level.
Panel Consists Of Chief Justice Frost and
Justices Boyce and Jewell.

63a

Sincerely,
/s/ Christopher A. Prine, Clerk

64a

Appendix D: Order Denying Motion for Rehearing En
Banc by Fourteenth Court of Appeals, Texas, August
30, 2018

FILE COPY
Justices
WILLIAM J. BOYCE
TRACY CHRISTOPHER
MARTHA HILL JAMISON
J. BRETT BUSBY
JOHN DONOVAN
MARC W. BROWN
KEN WISE
KEVIN JEWELL
[Official Seal of the State of Texas]
Chief Justice
KEM THOMPSON FROST
Clerk

65a

CHRISTOPHER A. PRINE
PHONE 713-274-2800
Fourteenth Court of Appeals
301 Fannin, Suite 245
Houston, Texas 77002
Thursday, August 30, 2018
Robert C. Vilt
Vilt and Associates, P.C.
5177 Richmond Avenue, Ste 1142
Houston, TX 77056
* DELIVERED VIA E-MAIL *
Keith Allen Wolfshohl
Barry & Sewart, PLLC
4151 Southwest Freeway, Suite 680
Houston, TX 77027
* DELIVERED VIA E-MAIL *
Anna Clement Sewart
Barry & Sewart, PLLC

66a

4151 Southwest Fwy Ste 680
Houston, TX 77027-7405
* DELIVERED VIA E-MAIL *
Austin R. DuBois
Barry & Sewart, PLLC
4151 Southwest Freeway, Suite 680
Houston, TX 77027
* DELIVERED VIA E-MAIL *
RE: Court of Appeals Number: 14-17-00220-CV
Trial Court Case Number: 2017-06257
Style: Jelinis, LLC
V.
S. Bruce Hiran and Hung N. Yi
Please be advised that on this date the Court
DENIED APPELLEE’S motion for rehearing en
banc in the above cause.

67a

Panel Consists Of Chief Justice Frost and
Justices Boyce, Christopher, Jamison, Busby,
Brown, Wise and Jewell.
Sincerely,
/s/ Christopher A. Prine, Clerk

68a

Appendix E: Temporary Injunction Order March 10,
2017
CAUSE NO. 2017-06257
S. BRUCE HIRAN AND
HUNG N. YI
V.
LONG BEACH
MORTGAGE
COMPANY;
DEUTSCHE BANK
NATIONAL TRUST
COMPANY, AS
TRUSTEE, IN TRUST
FOR THE
REGISTERED
HOLDERS OF LONG
BEACH MORTGAGE
LOAN TRUST 2006-10,
ASSET BACKED
CERTIFICATES,
SERIES 2006-10; AND
JELINIS, LLC

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

IN THE DISTRICT
COURT
OF HARRIS,
COUNTY, TEXAS

151st JUDICIAL
DISTRICT

TEMPORARY INJUNCTION ORDER
On February 24, 2017 came on to be heard
Plaintiffs’ Application for Temporary Injunction. S.

69a

Bruce Hiran and Hung N. Yi appeared by and through
their legal counsel and Jelinis, LLC appeared by and
through its legal counsel.
The Court, having reviewed the pleadings filed
in this cause and the arguments of legal counsel finds
there is sufficient evidence that: (i) S. Bruce Hiran and
Hung N. Yi are in possession of the real property
which is the subject of this lawsuit; (ii) Jelinis, LLC
purchased the real property which is the subject of
this lawsuit on December 06, 2016; (iii) Jelinis, LLC
filed a forcible detainer lawsuit regarding the real
property which is the subject of this lawsuit on
January 12, 2017 and a hearing in that matter is
scheduled for March 16, 2017; (iv) harm is imminent
and S. Bruce Hiran as well as Hung N. Yi will suffer
irreparable harm during the pendency of this lawsuit;
(v) S. Bruce Hiran and Hung N. Yi are likely to prevail

70a

on the merits of this lawsuit; and (vi) the temporary
injunction should be granted.* It is therefore
ORDERED that the Court hereby enjoins
Jelinis, LLC, its members, directors, legal counsel,
and all others who receive actual notice of this signed
Temporary Injunction Order from selling the real
property, which is the subject matter of this lawsuit
and is commonly known as 4132 Lehigh Avenue,
Houston, TX 77005, during the pendency of this
lawsuit. It is further.
ORDERED that the Court hereby enjoins
Jelinis, LLC, its members, directors, legal counsel,
and all others who receive actual notice of this signed

More specifically, the Court finds that there is evidence of a
discrepancy in the home equity loan note between the interest
rate (fixed) allegedly agreed to and the adjustable interest rate
in the document introduced at the temporary injunction
hearing. Further, the Court finds that the final relief granted
in the lawsuit in the 270th District Court was only in rem
pursuant to TRCP 735 and therefore likely does not have
preclusive effect on Plaintiffs claims in this suit as a matter of
law
*

71a

Temporary Injunction Order from taking any legal
action (including but not limited to proceeding in Case
Number 171100017554; Jelinis LLC v. S. Bruce Hiran
and Hung N. Yi; In the Justice Court of Harris
County, Texas; Precinct 1 - Place 1) to evict S. Bruce
Hiran, Hung N. Yi, and all other occupants from the
real property which is the subject matter of this
lawsuit and is commonly known as 4132 Lehigh
Avenue, Houston, TX 77005 during the pendency of
this matter.†

SIGNED this _______day of March, 2017.
Signed: [illegible]
3/10/2017
9:23 AM
______________________________

It is further ORDERED that this temporary injunction will
not take effect unless and until Plaintiffs post a good and
sufficient bond in the amount of $15,000.00. It is further
ORDERED that this case is hereby set for trial on the 2 week
docket starting December 4, 2017. A docket control order will be
issued.
†

72a

JUDGE MIKE ENGLEHART
Appendix F: Order Denying Petition for Review by
Supreme Court of Texas, March 1, 2019
FILE COPY
RE: Case No. 18-0956
COA #: 14-17-00220-CV
STYLE: HIRAN v. JELINIS LLC
DATE: 3/1/2019
TC#: 2017-06257
Today the Supreme Court of Texas denied the
petition for review in the above-referenced case.

73a

Appendix G: Order Denying Motion for Rehearing by
Supreme Court of Texas, April 26, 2019
FILE COPY
RE: Case No. 18-0956
COA #: 14-17-00220-CV
STYLE: HIRAN v. JELINIS LLC
DATE: 4/26/2019
TC#: 2017-06257
Today the Supreme Court of Texas denied the
motion for rehearing of the above-referenced petition
for review.
(Justice Busby not sitting)

74a

